USCA4 Appeal: 20-6813

Pg: 1 of 2

Filed: 09/29/2020

Doc: 26

UNPUBLISHED
:s

UNITED STATES COURT OF APPEALS
FOR THEFOURTH CIRCUIT
i

/ fv; v’ ■ ■:;1

iU‘<> \i ij o'

U

No. 20-6813
V,

■'\
w

h-

LARRY WILLIAMS, 1
Plaintiff - Appellant,
' '

V l

•/

--

V.

SCOTT B. LEWIS; SUSAN M. DUFFY; FELICIA OGUNSILE; ADAM T.
BRADBURN; CAPTAIN LANE; OFFICER BUTLER, Unit Counselor; WARDEN
GLAND,
-i -

Defendants - Appellees.

Appeal from the United States District. Court for the District of South Carolina, at
Orangeburg. Mary G. Lewis, District Judge. (5:19-cv-00182-MGL)
Submitted: September 24, 2020

y,\ •(

,

Decided: September’29, 2020

Before HARRIS and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Affirmed by unpublished per curiam opinion.
t % •-

Larry Williams, Appellant Pro Se. Michael Todd Smith, LOGAN, JOLLY & SMITH,
LLP, Anderson, South Carolina, for Appellees:"'"
<

i

if

?

■f J ’ •’ f'':

■ v,F

Unpublished opinions are not binding precedent in this circuit.

!

USCA4 Appeal: 20-6813

Doc: 26

Filed: 09/29/2020

Pg: 2 of 2

PER CURIAM:
Larry Williams appeals the district court’s order accepting the recommendation of
the magistrate judge, dismissing Williams’ 42 U.S.C. § 1983 claim for failure to exhaust
administrative remedies, and declining to exercise supplemental jurisdiction over
Williams’ remaining state law claim. We have reviewed the record and find no reversible
error. Accordingly, we affirm for the reasons stated by the district court. Williams v. Lewis,
No. 5:19-cv-OOl 82-MGL (D.S.C. May 19,2020). We dispense with oral argument because
the facts and legal contentions are adequately presented in the materials before this court
and argument would not aid the decisional process.
AFFIRMED

2

USCA4 Appeal: 20-6813

Doc: 27-2

Filed: 09/29/2020

Pg: 1 of 3

n

Total Pages:(2 of 4)

FILED: September 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6813,

Larry Williams v. Scott Lewis
5:19-cv-OO 182-MGL

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please be
advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: To be timely, a petition for certiorari
must be filed in the United States Supreme Court within 90 days of this court's entry of
judgment. The time does not run from issuance of the mandate. If a petition for panel
or en banc rehearing is timely filed, the time runs from denial of that petition. Review
on writ of certiorari is not a matter of right, but of judicial discretion, and will be
granted only for compelling reasons, (www.supremecourt.gov)
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED COUNSEL:
Vouchers must be submitted within 60 days of entry of judgment or denial of
rehearing, whichever is later. If counsel files a petition for certiorari, the 60-day period
runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is being made from
CJA funds, counsel should submit the CJA 20 or CJA 30 Voucher through the CJA
eVoucher system. In cases not covered by the Criminal Justice Act, counsel should
submit the Assigned Counsel Voucher to the clerk's office for payment from the
Attorney Admission Fund. An Assigned Counsel Voucher will be sent to counsel
shortly after entry ofjudgment. Forms and instructions are also available on the court's
web site, www.ca4.uscourts.gov, or from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment. (FRAP
39, Loc. R. 39(b)).

5:19-cv-00182-MGL

Date Filed 05/19/20

Entry Number 192

Page 1 of 5

fASf s
<8

1
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
ORANGEBURG DIVISION
LARRY WILLIAMS,
Plaintiff,
vs.
SCOTT B. LEWIS, SUSAN M. DUFFY,
FELICIA OGUNSILE, ADAM T.
BRADBURN, CAPT. LANE, UNIT
COUNSELOR BUTLER, and WARDEN
GLAND,
Defendants.

§
§
§
§ CIVIL ACTION 5:19-CV-0182-MGL-KDW
§
§
§
§
§
§
§

ORDER ADOPTING THE REPORT AND RECOMMENDATION,
GRANTING DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT
AS TO PLAINTIFF’S FEDERAL CLAIM,
AND REMANDING HIS STATE CLAIM TO STATE COURT
Larry Williams (Williams) brought his 42 U.S.C. § 1983 cause of action, Complaint at 5,
coupled with his state claim of emotional and mental distress claim, id. at 6, against Defendants
Scott B. Lewis, Susan M. Duffy, Felicia Ogunsile, Adam T. Bradbum, Captain Lane, Unit Counselor
Butler, and Warden Gland (Defendants). The Court liberally construes Williams’s emotional and
mental distress claim as an intentional infliction of emotional distress cause of action. Williams is
self represented.
The matter is before the Court for review ofthe Report and Recommendation (Report) of the
United States Magistrate Judge suggesting Defendants’ motion for summary judgment be granted.

5:19-cv-00182-MGL

Date Filed 05/19/20

Entry Number 192

Page 3 of 5

For the most part, Williams’s objections are non-specific and fail to directly address the
Magistrate Judge’s reasoning in the Report. On page one of the attachment to the Report, however,
the Magistrate Judge instructed Williams to file specific objections:
Objections must specifically identify the portions of the Report and
Recommendation to which objections are made and the basis for such
objections.

Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a
judgment of the District Court based upon such Recommendation.
28 U.S.C. § 636(b)(1); Thomas v. Arn, 474 U.S. 140 (1985fWright
v. Collins, 766 F.2d 841 (4th Cir. 1985); United States v. Schronce,
727 F.2d 91 (4th Cir. 1984).
Attachment to Report at 1.
“A general objection to the entirety of the magistrate's report has the same effects as would
a failure to object.” Howard v. Sec'y of Health and Human Servs., 932 F.2d 505, 509 (6th Cir.
1991). In such a case, the Court “need not conduct a de novo review, but instead must ‘only satisfy
itself that there is no clear error on the face of the record ... to accept the recommendation.'”
Diamond v. Colonial Life &Acc. Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005) (quoting Fed. R. Civ.
P. 72 advisory committee’s note).
To the extent Williams offers specific objections, he does so by providing the date he says
he took the first step in the grievance procedure. But, he fails either to (1) say, even in a conclusory
fashion, he actually completed the grievance process, or (2) offer any proof he did so. These failures
are fatal to Williams’s claims.
Further, on page two of the additional attachment the Clerk entered on May 7, 2020,
Williams states “Chief Judge ... Ralph K. Anderson III is hearing this case in [the South Carolina
Administrative Law Court].” With this statement, Williams appears to agree he has failed to exhaust
his administrative remedies before he filed this lawsuit. But, the exhaustion requirement of the

3

5:19-cv-00182-MGL

Date Filed 05/19/20

Entry Number 192

Page 4 of 5

Prison Litigation Reform Act... demands that an inmate exhaust “such administrative remedies as
are available” before bringing suit to challenge prison conditions.” Ross v. Blake, 136 S.Ct. 1850,
1852 (2016) (quoting 42 U.S.C. § 1997e(a). Williams failed to do that. Consequently, the Court
will overrule Williams’s objections.
After a thorough review of the Report and the record in this case pursuant to the standard set
forth above, the Court adopts the Report to the extent it does not contradict this Order, and
incorporates it herein. Therefore, it is the judgment of the Court Defendants’ motion for summary
judgment is GRANTED as to Williams’s federal claim because of Williams’s failure to exhaust his
administrative remedies and this claim is DISMISSED WITHOUT PREJUDICE.
Therefore, Williams’s intentional infliction of emotional distress state claim is all that
remains. The Court may decline to exercise supplemental jurisdiction over a state law claim if it
“has dismissed all claims over which it has original jurisdiction.” 28 U.S.C. § 1367. TheCourthas
“wide discretion” to do so. Yashenko v. Harrah’sNC Casino Co., 446 F.3d 541, 553 n.4 (4th Cir.
2006).
When determining whether to decline to exercise supplemental jurisdiction, the Court
considers “convenience and fairness to the parties, the existence of any underlying issues of federal
policy, comity, and considerations of judicial economy.” Shanaghan v. Cahill, 58 F.3d 106, 110
(4th Cir. 1995).

Here, there is no indication Williams’s remaining state law claim would

inconvenience or unfairly prejudice the parties, nor does the Court find any underlying issues of
federal policy involved in these state law claims.
Other courts in this district, when faced with similar circumstances have dismissed the
federal claims and remanded the state claims to state court. See, e,g., Sutherland v. South Carolina
Department of Corrections, No. 0:19-cv-2106-JFA, 2020 WL 1672533, at *2-3 (D.S.C., April 6,
2020) (granting the defendants’ motion for summary judgment as to the plaintiffs federal claims

4

5:19-cv-00182-MGL

Date Filed 05/19/20

Entry Number 192

Page 5 of 5

for his failure to exhaust his administrative remedies and declining to exercise supplemental
jurisdiction over the plaintiffs remaining state law claims); Simpson v. S.C. Dep’t of Corr., No.
2:17-cv-3031-RMG, 2019 WL4254228, at *5 (D.S.C. Sept. 9,2019) (granting summary judgment
on federal claims for failure to exhaust, declining to exercise supplemental jurisdiction over the
remaining state law claims and remanding the state law claims to state court noting, “there is no
indication that remanding the state law claims would inconvenience or unfairly prejudice the
parties, nor does the Court find any underlying issues of federal policy involved in these state law
claims”); Johnson v. Ozmint, No. 9:08-cv-0431 -PMD, 2009 WL 252152, at *6 (D.S.C. Feb. 2,2009)
(dismissing federal claims for failure to exhaust administrative remedies and noting, “With respect
to these remaining state law causes of action, when federal claims presented in a case which has
been removed to federal court from state court are dismissed, the case should be remanded to state
court for resolution of any remaining state law claims . . ..”).
The Court agrees with the reasoning of those other courts. Therefore, it declines to exercise
supplemental jurisdiction over William’s state intentional infliction of emotional distress claim. As
such, that claim is REMANDED to the Richland County Court of Common Pleas.
IT IS SO ORDERED.
Signed this 19th day of May, 2020, in Columbia, South Carolina.
s/ Mary Geiger Lewis_____________
MARY GEIGER LEWIS
UNITED STATES DISTRICT JUDGE

•kie^kifk

NOTICE OF RIGHT TO APPEAL
Williams is hereby notified of the right to appeal this Order within thirty days from the date
hereof, pursuant to the Federal Rules of Appellate Procedure.

5

5:19-cv-00182-MGL

Date Filed 03/25/20

Entry Number 171

Page 1 of 7

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
Larry Williams,
Plaintiff,
v.

Scott B. Lewis, Susan M. Duffy, Felicia
Ogunsile, Adam T. Bradbum, Capt. Lane,
Unit Counselor Butler and Warden Gland,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

C/A No. 5:19-CV-00182-MGL-KDW

REPORT AND
RECOMMENDATION

Plaintiff, proceeding pro se, brought this civil rights action under 42 U.S.C. § 1983 alleging
violations of his constitutional rights during his confinement at Perry Correctional Institution
(“PCI’). This matter is before the court on Defendants’ Motion for Summary Judgment, filed
December 6, 2019. ECFNo. 142. As Plaintiff is proceeding pro se, the court entered a Roseboro ;
order on December 9, 2019, advising Plaintiff of the importance of such motions and the need for
him to file a response. ECF No. 143. Plaintiff responded to Defendants’ motion on January 21,
2020. ECF No. 168. Accordingly, this motion is now ripe for consideration.
This case was referred'to the undersigned United States Magistrate Judge for all pretrial
proceedings pursuant to the provisions of 28 U.S.C. § 636(b)(1)(A) and (B) and Local Civil Rule
73.02(B)(2)(d) and (e), D.S.C. Because this motion is dispositive, a Report and Recommendation
is entered for the court’s review. For the reasons outlined below, the undersigned recommends that
Defendants’ Motion for Summary Judgment be granted.

l

Roseboro v. Garrison, 528 F. 2d 309 (4th Cir. 1975) (requiring that the court provide explanation
of dismissal/summary judgment procedures to pro se litigants).

5:19-cv-00182-MGL

Date Filed 03/25/20

Entry Number 171

Page 2 of 7

I. Background
Plaintiff first filed his Complaint, Case No. 2018-CP-40-03195, on June 19, 2018 in the
Court of Common Pleas in Richland County, South Carolina. ECF No. 1-1. Plaintiff alleged that
his placement in the Restrictive Housing Unit (“RHU”) at PCI from April 9, 2018 to May 30, 2018
constituted cruel and unusual punishment in violation of the Eighth Amendment. Id. On January
22, 2019, Defendants removed the case to this court based on 28 U.S.C. § 1441(a) and 1446. ECF
No. 1. Defendants filed their Motion for Summary Judgment on December 6, 2019. ECF No. 142.
Plaintiff responded to Defendants’ motion on January 27, 2020. ECF No. 168.
II. Standard of Review
The court shall grant summary judgment “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to a judgment as a matter of law.” Fed.
R. Civ. P. 56(a). The movant bears the initial burden of demonstrating that summary judgment is
appropriate; if the movant carries its burden, then the burden shifts to the non-movant to set forth
specific facts showing that there is a genuine issue for trial. See Celotex Corp. v. Catrett, 477 U.S.
317,322-23 (1986). If a movant asserts that a fact cannot be disputed, it must support that assertion
either by “citing to particular parts of materials in the record, including depositions, documents,
electronically stored information, affidavits or declarations, stipulations (including those made for
purposes of the motion only), admissions, interrogatory answers, or other materials;” or “showing
.. . that an adverse party cannot produce admissible evidence to support the fact.” Fed. R. Civ. P.
56(c)(1).
In considering a motion for summary judgment, the evidence of the non-moving party is
to be believed and all justifiable inferences must be drawn in favor of the non-moving party. See
Anderson v. Liberty Lobby, Inc., All U.S. 242, 255 (1986). However, “[ojnly disputes over facts

2

5:19-cv-00182-MGL

Date Filed 03/25/20

Entry Number 171

Page 3 of 7

that might affect the outcome of the suit under the governing law will properly preclude the entry
of summary judgment. Factual disputes that are irrelevant or unnecessary will not be counted.” Id.
at 248. Further, while the federal court is charged with liberally construing a Complaint filed by a
pro se litigant to allow the development of a potentially meritorious case, see, e.g., Cruz v. Beto,
405 U.S. 319, 322 (1972), the requirement of liberal construction does not mean that the court can
ignore a clear failure in the pleadings to allege facts that set forth a federal claim, nor can the court
assume the existence of a genuine issue of material fact when none exists. Weller v. Dep ’t ofSoc.
Servs., 901 F.2d 387, 391 (4th Cir. 1990).
III. Analysis
A. Plaintiff has failed to exhaust his administrative remedies.
Defendants argue that they are entitled to summary judgment because Plaintiff has failed
to exhaust his administrative remedies as required by the Prison Litigation Reform Act (“PLRA”),
Pub. L. No. 104-134, 110 Stat. 1321 (codified as amended at 42 U.S.C. § 1997e(a) (1996)). ECF
No. 142-1 at 2. The PLRA mandates, among other things, that prisoners exhaust their
\.

administrative remedies prior to filing civil actions. See Jones v. Bock, 549 U.S. 199, 211 (2007).
Exhaustion is required for “[a]ll actionfs] . . . brought with respect to prison conditions, whether
under § 1983 or any other Federal law.” Porter v. Nussle, 534 U.S. 516, 524 (2002) (internal
quotations omitted). The PLRA’s exhaustion requirement “applies to all inmate suits about prison
life, whether they involve general circumstances or particular episodes, and whether they allege
excessive force or some other wrong.” Porter, 534 U.S. at 532. Exhaustion is a threshold
requirement which must be satisfied for prisoner complaints to proceed. See Jones, 549 U.S. at
216; Booth v. Churner, 532 U.S. 731,741 (2000). Although PLRA exhaustion is not jurisdictional,
failure to exhaust is an affirmative defense that can be pleaded by the defendants. Jones, 549 U.S.

3

5:19-cv-00182-MGL

Date Filed 03/25/20

Entry Number 171

Page 4 of 7

at 216. No unexhausted claims may be considered by the court; such claims must be dismissed.
Jones, 549 U.S. at 211. The PLRA requires “proper” exhaustion, that is, “a prisoner must file
complaints and appeals in the place, and at the time, the prison’s administrative rules require.”
Woodford v. Ngo, 548 U.S. 81, 93 (2006).
“Requiring exhaustion allows prison officials an opportunity to resolve disputes
concerning the exercise of their responsibilities before being hauled into court.” Jones, 549 U.S.
at 204. It also has the potential to reduce the number of inmate suits and to improve the quality of
suits that are filed by producing a useful administrative record. Id.', Woodford, 548 U.S. at 93-95.
“When a grievance is filed shortly after the event giving rise to the grievance, witnesses can be
identified and questioned while memories are still fresh, and evidence can be gathered and
preserved.” Woodford, 548 U.S. at 95. The South Carolina Department of Corrections Policy
regarding inmate grievances is set out in Policy GA-01.12 entitled Inmate Grievance System.
Section 13.2 of this policy states that “Inmates must make an effort to informally resolve a
grievance by submitting a Request to Staff Member Form to the appropriate supervisor/staff within
eight (8) working days of the incident.” The policy also requires that “[e]exceptions to policy must
be requested, and approved through the Chief, Inmate Grievance Branch.”
Defendants claim they are entitled to summary judgment because Plaintiff did not submit
a Request to Staff Member Form as required by South Carolina Department of Corrections
(“SCDC”) policy. ECF No. 142-1 at 3. In support of this argument, Defendants submit the
Affidavit of Sherman Anderson, SCDC Inmate Grievance Coordinator. ECF No. ECF No. 142-2.
SCDC Policy requires inmates to “first make every effort to resolve grievances informally by
submitting a Request to Staff Member (RTSM) Form to the appropriate supervisor/staff within
eight (8) working days of the incident.” Id. at 2. In his affidavit, Mr. Anderson states that “Plaintiff

4

5:19-cv-00182-MGL

Date Filed 03/25/20

Entry Number 171

Page 5 of 7

Larry Williams, inmate #094203, failed to ma[ke] any attempt to informally resolve a grievance
by submitting a Request to Staff Member (SCDC Form 19-11) or a RTSM through the kiosk to
the proper staff member.

SCDC Pol icy/Procedure GA-01.12, Section 13.”

Id.

Plaintiffs

Response, ECF No. 168, does not address Defendants’ argument that he has failed to exhaust his
administrative remedies, nor does it include copies of the required RTSM Forms. Therefore, the
undersigned concludes there are no issues of genuine material fact related to whether or not
Plaintiff has exhausted his administrative remedies and that the PLRA bars Plaintiffs suit from
moving forward.
B. Plaintiff has not raised any issues of material fact that his constitutional rights
were violated.
Defendants alternatively argue that even if the court should conclude that Plaintiff has
exhausted his administrative remedies and can proceed, the conditions-of-confinement allegations
raised in Plaintiff s Complaint do not rise to the leve 1 of constitutional deprivation under the Eighth
Amendment, making summary judgment appropriate. ECF No. 142-1 at 4. Plaintiff asserts that he
was “placed on lockup for no reason at all” and with no warning or charge of misconduct. ECF
No. 168 at 1.
In order to state an Eighth Amendment violation with respect to prison conditions, a
prisoner must show: “(1) a serious deprivation of a basic human need; and (2) deliberate
indifference to prison conditions on the part of prison officials.” Williams v. Griffin, 952 F.2d 820,
824 (4th Cir. 1991). To establish the subjective component of a conditions-of-confinement claim.
a prisoner must show that prison officials acted with deliberate indifference—that is, the prisoner
must show that the officials acted with more than mere negligence but less than malice. See
Williams v. Benjamin, 77 F.3d 756, 761 (4th Cir. 1996); see also Farmer v. Brennan, 511 U.S.
825, 835-37 (1994). For the objective component of a conditions-of-confinement claim, the
5

5:19-cv-00182-MGL

Date Filed 03/25/20

Entry Number 171

Page 6 of 7

prisoner must demonstrate an extreme deprivation of his rights. See Williams v. Branker, 462 F.
App’x. 348, 353 (4th Cir. 2012).
The conditions of confinement of which Plaintiff complains do not rise to the level of an
Eighth Amendment violation. The Defendants, in support of their position that Plaintiffs claims
do not arise to the level of a constitutional violation have submitted the affidavit of Warden Scott
Lewis. ECF No. 142-3. Here, Warden Lewis explains that Plaintiff was placed in a Restrictive
Housing Unit on April 9, 2018 and moved back to his regular dorm on May 30, 2018. Lewis Aff.
f 4, ECF No. 142-3. He adds that Plaintiff was placed in the Restrictive Housing Unit because the
“inmate was a threat to the physical safety of other inmates and staff.” Id.2 Plaintiff responds that
he was “place[d] on lock up for no reason and with no right [sic] up and with no charges at all.”
ECF No. 168 at 1. However, Plaintiff has not put forth any evidence to support this claim. The
Fourth Circuit has held that the restrictive conditions of high security incarceration do not rise to
the level of cruel and unusual punishment. In re Long Term Administrative Segregation ofInmates
Designated as Five Percenters, 174 F.3d 464, 471 (4th Cir.l 999) (“These conditions are indeed
restrictive, but the restrictive nature of high-security incarceration alone does not constitute cruel
and unusual punishment.”). The undersigned finds that Plaintiff has failed to offer any evidence of
deliberate indifference nor has Plaintiff demonstrated an extreme deprivation of his rights.
Therefore, the undersigned additionally recommends granting Defendants’ Motion for Summary
Judgment, ECF No. 142, because Plaintiffs vague allegations do not rise to a level of
constitutional deprivation.

2 In his affidavit, Warden Lewis references an “attached Pre-Hearing Detention
Placement/Extension, Section ‘Notice of Placement’.” f 5, ECF No. 142-3. However, this
document was not attached to his affidavit or filed with the court.
6

5:19-cv-00182-MGL

Date Filed 03/25/20

Entry Number 171

Page 7 of 7

IV. Conclusion
Based on the foregoing, the undersigned recommends granting Defendants’ Motion for
Summary Judgment. ECF No. 142.
IT IS SO RECOMMENDED.

Kay man i D. West
United States Magistrate Judge

March 25, 2020
Florence, South Carolina

The parties are directed to note the important information in the attached
“Notice of Right to File Objections to Report and Recommendation.”

7

